LeBas

LAW OFFICES, APLC
Lafayette-New Orleans
www.lebaslaw.com
January 28, 2021
Via E-file:
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Clarence J. Simon, Jr. v. Director, OWCP, et al
No. 20-1013

Dear Clerk:
Please allow this correspondence to serve as a formal unopposed request for extension
of time in which to respond to the Petition for a Writ of Certiorari filed by
Petitioner/Clarence J. Simon, Jr. Undersigned, counsel for Respondent/Longnecker
Properties, Inc. and SeaBright Insurance Company, requests an extension of time of 30
days, from February 26, 2021 to March 29, 2021, in which to respond to the Petition for
a Writ of Certiorari filed by Petitioner/Clarence J. Simon, Jr. in order to allow the
parties time to engage in settlement discussions.
Sincerely,

Henry H. LeBas
hlebas@lebaslaw.com
HHL/aeb
Cc:

Louis Koerner, Counsel for Clarence Simon
Elizabeth B. Prelogar, Acting Solicitor General

Phone: 337.236.5500 Mail: 2 Flagg Place, Suite 1, Lafayette, LA 70508 Fax: 337.236.5590

